         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
The Department of Energy's
Implementation of Homeland
Security Presidential Directive 12




DOE/IG-0860                       February 2012
                                  Department of Energy
                                     Washington, DC 20585
                                         February 28, 2012


MEMORANDUM FOR THE SECRETARY


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "The Department of Energy's
                          Implementation of Homeland Security Presidential Directive 12"

INTRODUCTION AND OBJECTIVE

Homeland Security Presidential Directive 12 (HSPD-12), Policies for a Common Identification
Standard for Federal Employees and Contractors, was established in August 2004 to enhance
national security and mandate the use of a Federal government-wide standard for secure and
reliable forms of identification for Federal employees and contractors. HSPD-12 required that
the identification be issued based on sound criteria for verifying an employee's identity; strongly
resistant to identity fraud, tampering, counterfeiting and terrorist exploitation; able to be rapidly
authenticated electronically; and, issued only by providers with reliability established by an
official accreditation process. Full implementation of HSPD-12 includes badge issuance, and
physical and "logical access control" systems. "Logical controls" rely on computer hardware and
software to prevent unauthorized access. While badge issuance is the initial step and involves
providing credentials to all employees and contractors that are covered by HSPD-12, logical and
physical access controls entail using the credential to gain access to information systems and
Federal facilities, including those that are Government-owned and contractor-operated.

The Department of Energy initiated its HSPD-12 efforts in 2004 and has spent more than $15
million, most of which was dedicated to issuance and maintenance of badges. However, recent
Office of Management and Budget guidance directed that Federal agencies should have physical
and logical access controls fully installed and that policy be issued by each agency to ensure all
new systems under development be enabled to use HSPD-12 credentials. OMB also directed
that, effective the beginning of Fiscal Year 2012, physical and logical access controls be
upgraded to use HSPD-12 credentials prior to using development and technology refresh funds
to complete other activities, and noted that agencies' processes must accept and electronically
verify HSPD-12 credentials issued by other Federal agencies. In light of the updated OMB
requirements, we initiated this audit to determine whether the Department implemented physical
and logical access controls in accordance with HSPD-12.

RESULTS OF AUDIT

We found that, despite 7 years of effort and expenditures of more than $15 million, the
Department had yet to meet all HSPD-12 requirements. In particular, the Department had not
fully implemented physical and logical access controls in accordance with HSPD-12.
Furthermore, the Department had not issued HSPD-12 credentials to many uncleared contractor
personnel at its field sites. Specifically:

   •   None of the 5 field sites reviewed had fully implemented physical access controls in
       accordance with HSPD-12 for the more than 40,000 employees requiring access to those
       facilities. While the Oak Ridge National Laboratory and the East Tennessee Technology
       Park had started implementing physical controls using HSPD-12 credentials, the
       remaining sites had not begun work, and none had a fully developed system in place as
       defined by HSPD-12 and Department guidance. As noted by the National Institute of
       Standards and Technology, utilizing the full functionality of HSPD-12 credentials for
       physical access is important because it is more secure and reliable than traditional
       controls currently in use;

   •   The Department had made progress for utilizing the HSPD-12 credential to authenticate
       user access to information systems; however, additional work was needed. For example,
       although Headquarters and the Oak Ridge Office were using badges on a limited basis to
       allow network access, none of the sites reviewed had fully implemented logical access
       controls for all information systems and applications as required by HSPD-12. In fact,
       many sites had not even begun to implement logical controls even though the
       requirement to begin this work had been in place for approximately 5 years. Federal
       guidelines note that some of the benefits of using the HSPD-12 credential for logical
       access include electronic authentication of the credential at the time of use, which cannot
       be achieved with usernames and passwords; and,

   •   Contrary to the goals and requirements of the directive, four of the five field sites we
       reviewed did not provide HSPD-12 credentials to contractors that did not hold a security
       clearance. The fifth site, Oak Ridge Office, issued badges to these employees only when
       they met certain unique requirements, such as the need for travel to other Department
       sites. We noted that over 11,000 of 40,000 (27 percent) individuals without security
       clearances that required routine access to sites for a period in excess of 6 months had not
       been issued HSPD-12 credentials. While the Department's current badging processes
       provided certain security assurances, the processes did not include all background checks
       required by HSPD-12. Federal regulations emphasized that issuance of the credential be
       based on sound criteria for identity verification and highly resistant to identity fraud,
       counterfeiting and tampering.

We noted what we considered to be a lack of a coordinated approach among programs and sites
related to implementation of HSPD-12 requirements. In particular, we found that guidance
provided by management was fragmented and often inadequate to meet the goals of the
initiative. In addition, ongoing efforts suffered from a lack of coordination among programs and
sites to determine the cost, scope and schedule of work required to implement HSPD-12
requirements. Further, several programs and sites visited had not established budgets in an
attempt to obtain funding to support HSPD-12 activities.

OMB has concluded that the use of HSPD-12 credentials provides more secure access to Federal
facilities, enhanced cyber security and reduced overall costs. However, until physical and logical



                                                2
access controls are fully implemented in accordance with HSPD-12, the Department will
continue to pay significant maintenance costs for credentials without realizing the full benefits.

In response to a preliminary draft of our report, management officials noted that in certain
instances, such as construction contractors that are often restricted to certain areas and never
access Federal data systems, providing an HSPD-12 credential provides little additional benefit,
and as such, is not cost effective. The Office of Inspector General has long been a proponent of
a risk-based approach to physical and cyber security. As such, we agree that cost/benefit
realities can impact the nature and extent of security control measures. That said, however, we
also believe that it would be in the Department's best interest to consult with OMB if it plans to
adopt a process that does not fully comport with HSPD-12.

We found that some sites had initiated action to implement physical and logical access controls
supporting the goals of HSPD-12. For example, the Oak Ridge National Laboratory anticipated
that its physical access controls would be compliant by March 2012. Officials from other sites,
including Oak Ridge Office and East Tennessee Technology Park, stated that they planned to
implement their own physical controls based on the Oak Ridge National Laboratory's outcome
and lessons learned. These are positive actions; however, additional effort is necessary to ensure
that controls are implemented to meet the goals of HSPD-12. As such, we have made several
recommendations that, if fully implemented, should improve the Department's ability to
effectively implement physical and logical access controls in accordance with HSPD-12.

MANAGEMENT REACTION

Management concurred with the report's recommendations and indicated that it had initiated
corrective action to address issues identified in our report. In separate comments, National
Nuclear Security Administration concurred with the report's findings and stated that it will use
the findings to improve the management and oversight of its implementation of HSPD-12.
Management's comments are included in Appendix 3.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Under Secretary for Nuclear Security
      Acting Under Secretary of Energy
      Director, Office of Science
      Chief Health, Safety and Security Officer
      Chief Information Officer
      Acting Chief Financial Officer
      Chief of Staff




                                                  3
REPORT ON THE DEPARTMENT OF ENERGY'S IMPLEMENTATION
OF HOMELAND SECURITY PRESIDENTIAL DIRECTIVE 12


TABLE OF
CONTENTS


Implementation and Credential Issuance

Details of Finding ............................................................................................................................1

Recommendations and Comments ...................................................................................................8


Appendices

1. Objective, Scope and Methodology .........................................................................................10

2. Related Reports ........................................................................................................................12

3. Management Comments ..........................................................................................................14
THE DEPARTMENT OF ENERGY'S IMPLEMENTATION OF HOMELAND
SECURITY PRESIDENTIAL DIRECTIVE 12

Implementation and    Although the Department of Energy (Department) had invested
Credential Issuance   7 years of effort and expended more than $15 million, it had yet to
                      complete implementation of Homeland Security Presidential
                      Directive 12 (HSPD-12) requirements. While the Department spent
                      funds on installation of badge stations, badge issuance and monthly
                      credential maintenance fees, we found that it had not fully
                      implemented physical access control systems utilizing the HSPD-12
                      credential to restrict access to only those areas for which an
                      individual is authorized. In addition, none of the sites reviewed had
                      developed logical access controls to information systems and
                      applications in accordance with HSPD-12. Furthermore, the
                      Department had not issued HSPD-12 credentials to uncleared
                      contractors at its field sites. While the Department's current
                      badging processes provided certain assurances, all background
                      checks required by HSPD-12 were not included.

                                   Physical Access Controls Implementation

                      Of the 5 field sites reviewed, none had fully implemented physical
                      access control systems using HSPD-12 credentials for the more
                      than 40,000 employees requiring access to those facilities.
                      HSPD-12 physical access controls allow for the user's credential to
                      be electronically validated so that terminated or expired credentials
                      cannot be used to inappropriately access Federal facilities. While
                      the Oak Ridge National Laboratory (ORNL) and East Tennessee
                      Technology Park (ETTP) had started implementing physical access
                      controls, the remaining sites had not begun work, and none had a
                      fully developed system in place as defined by HSPD-12 and
                      Department guidance.

                      Three locations reviewed, with a total population of approximately
                      26,000 workers, had not begun physical access controls
                      implementation, which would provide the Department with
                      enhanced security and potentially reduce overall costs. For
                      example, as of July 2011 – seven years after the directive was
                      issued – the Oak Ridge Office (ORO) was still working to
                      purchase and install badge readers. In addition, although the Y-12
                      National Security Complex (Y-12) planned to install a HSPD-12
                      compliant physical security system, it had not begun work on the
                      project because of a lack of funding. Similarly, the Savannah
                      River Site (SRS) had not implemented a physical access control
                      system that would accept the functionality of the HSPD-12
                      credential. Limited progress was also observed at the remaining
                      sites reviewed. In particular, badge readers in ORNL's high




Page 1                                                                 Details of Finding
         security areas were not functional because it was in the process of
         obtaining software updates, and ETTP had not installed all of its
         HSPD-12 badge readers.

         We also found that four of six locations reviewed did not utilize
         the internal HSPD-12 badge smart chip functionality to control
         access to facilities. Instead, the Department modified its HSPD-12
         badges with the addition of a magnetic stripe to work with existing
         badge readers. Though the remaining locations used some of the
         smart chip's capability, validation checks were not fully performed
         to control facility access. This approach was appropriate during
         the Department's transition to HSPD-12 credential use. However,
         continued reliance on the magnetic stripe allowed the Department
         to delay utilizing the HSPD-12 credential's smart chip, that
         contains the owner's unique Personal Identity Verification (PIV)
         information and should be used to authenticate the identity of the
         cardholder. Notably, Headquarters had recently taken action to
         implement the smart chip functionality at its facilities.

                      Logical Access Controls Implementation

         The Department had made progress utilizing HSPD-12 credentials
         to authenticate user access to information systems; however,
         additional work was needed. While Headquarters and ORO were
         using badges on a limited basis to allow network access, none of
         the locations reviewed had fully implemented logical access
         control systems for all information systems and applications. As
         noted in the table below, less than 3 percent of the nearly 23,000
         users requiring system access at the field sites reviewed were using
         their credentials for such access.


                                       Users            Total
                                  Authenticating      Number of
               Location                                              Percentage
                                   via HSPD-12         System
                                    Credential          Users
         Y-12                             0             6,400           0.0%
         ORO                            557             1,056          52.7%
         ORNL                             0             6,200           0.0%
         ETTP                             0             1,500           0.0%
         SRS                             45             7,565           0.6%
         Total – Field Sites            602            22,721          2.6%
         Headquarters                  6,630            7,030           94%
         Total – All Locations         7,232           29,751           24%




Page 2                                                    Details of Finding
         According to planning documentation provided by the Department,
         using HSPD-12 credentials for access to information systems and
         applications provides for electronic authentication of the credential
         at the time of use, which cannot be achieved with the Department's
         current logical access controls of usernames and passwords. In
         addition, as noted in a recent U.S. Government Accountability
         Office report, the process of electronic authentication with the
         HSPD-12 credential significantly enhances the security of a
         computer system because it is more difficult for an intruder to
         circumvent. Also, each of the sites reviewed still had not acquired
         all of the necessary infrastructure such as PIV card readers and
         authentication software so that the badge's functionality could be
         used to access the Department's systems.

                                 Credential Issuance

         We found that four of the five sites reviewed did not provide
         HSPD-12 badges to contractors that did not hold a security
         clearance. One of the four sites, SRS, had recently curtailed its
         practice of issuing HSPD-12 credentials to all site personnel due to
         budget concerns. In addition, a fifth site issued the badges to
         employees only when they met certain requirements, such as the
         need to travel to other Department sites. According to HSPD-12
         guidance issued by the Office of Management and Budget (OMB),
         the directive is applicable to all Federal employees and contractors
         requiring routine access to Federal facilities or information systems
         for greater than 6 months. Further, the Federal Chief Information
         Officers Council (CIO Council) recently clarified that badges not
         meeting HSPD-12 requirements could not be issued to individuals
         that fell within the applicability of the directive. Issuance of the
         HSPD-12 credential requires completion of a National Agency
         Check with Inquiries (NACI) investigation that includes a Federal
         Bureau of Investigation (FBI) name and fingerprint check; Office
         of Personnel Management (OPM) Suitability Clearance Index and
         Defense Clearance Index check; written inquiries and searches of
         records for the past 5 years in the areas of employment, education
         and law enforcement; and, written inquiries and searches of
         records for the past 3 years in the areas of residences and
         references.

         Contrary to Federal direction, the Department issued guidance that
         HSPD-12 badges were not required for uncleared contractor
         employees at field sites, even if they maintained routine access to
         sites and/or information systems for periods in excess of 6 months.
         As a result, over 11,000 individuals (27 percent of the total
         population), without security clearances that required routine
         access to sites for a period in excess of 6 months, had not been

Page 3                                                    Details of Finding
         issued HSPD-12 credentials. Based on documentation provided by
         Department officials, we also noted that the Lawrence Berkeley
         National Laboratory had issued HSPD-12 badges to only 51 of
         3,948 (less than 2 percent) permanent personnel – those individuals
         requiring site access for a period longer than 6 months.

         While employees not receiving HSPD-12 badges did undergo
         various identity verification activities, as determined by the site,
         the procedures were generally less robust than, and did not include
         all elements of, a NACI review. For example, Y-12's site
         procedures, developed to meet National Nuclear Security
         Administration (NNSA) guidance, did not require the FBI and
         OPM checks described above for non-HSPD-12 badge issuance.
         Rather, Y-12 required the presentation of two forms of
         identification and a check of previous employers, education and
         references prior to badge issuance. As such, the site's identity
         verification activities were not as substantive as the NACI. In
         addition, identity verification activities were inconsistent among
         sites and were subject to change at the sites' discretion. As
         employees at many sites required routine access to Federal
         facilities and systems, their identities should have been verified in
         accordance with the Presidential directive. Further, one
         Department security official stated that not providing HSPD-12
         badges to contractors that did not hold a security clearance was
         contrary to best business practices and allowed the largest segment
         of the Department's population, on which there was no background
         information, to have unescorted access to Department facilities.

         Completion of robust background checks, such as those required
         by HSPD-12, may have prevented the issues related to identity
         proofing highlighted in two recent Office of Inspector General
         reports. For example, our inspection on Verification of Lawrence
         Berkeley National Laboratory's Contract Workers' Eligibility to
         Work in the U.S. (DOE/IG-0850, April 2011) identified eight
         individuals that had duplicate social security numbers, numbers
         belonging to deceased individuals or numbers that had yet to be
         issued – anomalies that would have been discovered had an
         effective HSPD-12 process been in place. In addition, our audit on
         Environmental Cleanup Projects Funded by the Recovery Act at
         the Y-12 National Security Complex (OAS-RA-L-11-02, December
         2010) determined that Y-12 had not used a third party to
         independently verify citizenship documentation provided by its
         workers. In both cases, had the sites used HSPD-12 background
         investigation procedures to obtain independent proof of citizenship
         for workers, the risk of unauthorized workers inappropriately
         gaining access to Federal facilities would have been significantly
         reduced.

Page 4                                                    Details of Finding
                       Rather than issue HSPD-12 credentials to all applicable
                       contractors, the Department planned to develop a separate badge,
                       commonly referred to as the PIV-Interoperability (PIV-I)
                       credential. However, the CIO Council noted that while it was a
                       valid credential, the PIV-I was only to be used for individuals not
                       requiring routine access to Federal facilities and systems. Contrary
                       to this guidance, the Department spent considerable time and effort
                       determining how this credential would be implemented for its
                       contractor personnel that did require routine access.

Coordinated Approach   The issues identified were due to the lack of a coordinated
to HSPD-12             approach among offices and sites related to implementation of
                       HSPD-12 requirements. In particular, we found that leadership
                       and guidance provided by management was fragmented and not
                       adequate to meet the goals of HSPD-12. In addition, ongoing
                       planning and implementation efforts suffered from a lack of
                       coordination among offices and sites to determine the cost, scope
                       and schedule of work required to meet HSPD-12 requirements.

                                            Leadership and Guidance

                       We found that leadership and guidance provided by management
                       was not adequate to meet the goals of HSPD-12. Specifically, a
                       number of Department officials commented that they believed
                       HSPD-12 would be rescinded when the current Administration
                       took office in 2009. As a result, the Department had not developed
                       adequate plans for implementing physical and logical access
                       controls using the HSPD-12 credential within the designated
                       timeframes established by OMB. In addition, while the Office of
                       Health, Safety and Security oversaw an effort to issue HSPD-12
                       badges across numerous sites, the Department's guidance regarding
                       badge issuance activities was insufficient. For example, sites
                       relied on a 2005 Department memorandum issued by the Deputy
                       Secretary, at the time, that allowed programs to determine whether
                       uncleared contractors at field sites would be issued HSPD-12
                       credentials. In June 2011, this guidance was incorporated into a
                       Department Order. However, the memorandum and Order both
                       contradicted HSPD-12 and direction that was recently re-enforced
                       by OMB. We also learned that the Department's Office of the
                       Chief Information Officer (OCIO) recently issued a memorandum
                       outlining a requirement to integrate physical and logical access
                       controls using the HSPD-12 credential.




Page 5                                                                 Details of Finding
                                              Coordinated Approach

                       We also noted that ongoing planning and implementation efforts
                       suffered from a lack of coordination among programs and sites to
                       determine the cost, scope and schedule of work required to
                       implement HSPD-12 requirements. In particular, even though it
                       had not implemented HSPD-12 physical and logical access control
                       systems, the Department had not developed an implementation
                       plan for utilization of PIV credentials as required by OMB
                       Memorandum 11-11. For example, of the four offices reviewed,
                       only the NNSA had developed an implementation plan that fully
                       supported HSPD-12, and the Office of Science (Science) had
                       developed an implementation plan supporting logical access
                       controls. To enhance ongoing efforts, the OCIO established an
                       Integrated Project Team (IPT) in 2011 to help align HSPD-12
                       implementation activities and improve coordination among offices.
                       However, at the time of our review, the IPT had not been in
                       existence long enough for us to evaluate its success. Finally, none
                       of the five sites reviewed had a site-wide plan for full HSPD-12
                       implementation. We also noted that several of the offices and sites
                       reviewed had not included HSPD-12 in their budgets in an attempt
                       to obtain funding to support these activities even though the
                       requirement had existed for 7 years.

                       Furthermore, communication from offices to respective field sites
                       was not effective. For example, NNSA officials at Headquarters
                       indicated that Y-12 was implementing physical access controls as
                       part of its ongoing Security Improvement Project. However,
                       during our site visit, we found that physical access controls in only
                       a small number of closed areas were included in the project. In
                       addition, although Science officials indicated that they believed
                       funding should be put towards other mission-related work instead
                       of implementation activities, we noted that ORNL was moving
                       forward with its upgrade to its physical access control system in
                       support of HSPD-12.

Realization of Goals   Until physical and logical access control systems are fully
and Objectives         implemented in accordance with HSPD-12, the Department will
                       continue to pay significant maintenance costs for credentials
                       without realizing the full benefits. As noted in HSPD-12, benefits
                       can include more secure access to Federal facilities, improved
                       cyber security, reduced costs and enhanced resistance to identity
                       fraud, counterfeiting, tampering and terrorist exploitation. In
                       addition, Department documentation noted that the use of HSPD-
                       12 credentials would create a streamlined and synchronized
                       process for managing access controls, that will work with other
                       agencies, facilities and applications to improve operational

Page 6                                                                  Details of Finding
         effectiveness and efficiency. Finally, OMB also directed that
         beginning in Fiscal Year 2012, development and technology
         refresh funding will be limited to HSPD-12 implementation
         activities until use of the credential is completely implemented.
         Therefore, until that time, the Department's activities requiring
         such funding will be restricted.

         Also, the Department may have circumvented the intent of HSPD-
         12 by limiting credential issuance at its field sites to only
         contractor employees that had already had their identities verified
         through a robust security clearance process. As previously noted,
         the HSPD-12 process was developed in an effort to increase
         security by verifying the identity of any individual working at a
         Federal facility for an extended period of time. However, the
         Department's decision to rely on site-level verification processes
         that were not as robust and have been demonstrated to have
         weaknesses restricted its ability to gain this type of assurance or
         security for its uncleared and more transient population. In
         addition, as a result of its decision to exclude certain contractors,
         progress of the Department's HSPD-12 efforts being reported to
         OMB was inflated because it only included contractor personnel
         that held security clearances. Specifically, at the six locations for
         which we have data, the Department reported that 94 percent of the
         total population had received an HSPD-12 badge. However, as
         this figure did not account for uncleared workers, we determined
         that the Department had only provided HSPD-12 badges to 53
         percent of the total population at these sites that met HSPD-12
         requirements.

         Furthermore, the Department continued to expend time and
         resources on efforts to identify alternatives to HSPD-12 badges
         that could have been better spent implementing the directive. As
         the identity-proofing alternatives did not include all verification
         activities required by HSPD-12, continued issuance of
         noncompliant credentials may hinder the Department's ability to
         sufficiently verify the identity of its employees and ensure that
         badges meet the goals of the Administration. In addition, the level
         of security offered by an HSPD-12 badge may not be realized due
         to inconsistencies in background checks.

         Finally, our review identified a potential cost savings to the
         Department if it phased out the use of RSA® tokens for remote
         access. As noted by the National Institute of Standards and
         Technology, a PIV card solution must support the same technology
         used by tokens to allow two-factor authentication. In addition, a
         recent study by NNSA noted that significant savings could be
         realized by making such a transition. While we acknowledge there

Page 7                                                    Details of Finding
                  are costs associated with implementing HSPD-12, we determined
                  that the Department could offset some of this cost through
                  potential savings of up to $600,000 at the locations we visited if
                  many of its users who possess the HSPD-12 credential were to
                  authenticate to unclassified systems using the credential rather than
                  a RSA® token. By doing so, the Department would no longer need
                  to incur maintenance and license fees associated with the tokens –
                  fees similar to those already being paid to maintain the HSPD-12
                  credential.

RECOMMENDATIONS   To help improve the Department's ability to effectively implement
                  physical and logical access control systems in accordance with
                  HSPD-12, we recommend that the Under Secretary for Nuclear
                  Security, Acting Under Secretary of Energy and Acting Under
                  Secretary for Science, in conjunction with the Department's and
                  NNSA's Chief Information Officers:

                     1. Develop and implement guidance to fully meet the goals
                        and requirements of HSPD-12;

                     2. Develop and implement a comprehensive plan that includes
                        cost analyses and timeframes for implementing physical
                        and logical access control systems in accordance with
                        HSPD-12; and,

                     3. Revise Department policy as appropriate to ensure that
                        uncleared contractors receive credentials in accordance
                        with the requirements of HSPD-12.

                  In addition, to ensure the Department meets the intended goals of
                  HSPD-12, we recommend that the Chief Information Officer:

                     4. Consult with OMB, as necessary, regarding the
                        Department's planned approach for badge issuance and the
                        use of an alternate credential for certain of its contractors.

MANAGEMENT        Department management agreed with the report's recommendations
REACTION          and stated that it had initiated action to address the issues
                  identified. Management commented that the report's findings were
                  reasonable and provided effective insight and recommendations to
                  correct discrepancies and improve the management and oversight
                  of the Department's implementation of HSPD-12. In addition,
                  management stated that it had established an IPT to oversee the
                  development of HSPD-12 policies, standards and guidelines. In
                  separate comments, NNSA management concurred with the




Page 8                                         Recommendations and Comments
                   report's findings and stated that it will use the findings to improve
                   the management and oversight of NNSA's implementation of
                   HSPD-12.

AUDITOR COMMENTS   Management's comments and planned corrective actions are
                   responsive to our recommendations. Management's formal
                   comments are included in Appendix 3.




Page 9                                                                       Comments
Appendix 1

OBJECTIVE     To determine whether the Department of Energy (Department) had
              implemented physical and logical access controls in accordance
              with Homeland Security Presidential Directive 12 (HSPD-12).

SCOPE         The audit was performed between April 2011 and February 2012,
              at Department Headquarters in Washington, DC and Germantown,
              Maryland; the Oak Ridge Office, Oak Ridge National Laboratory,
              East Tennessee Technology Park and Y-12 National Security
              Complex in Oak Ridge, Tennessee; and, the Savannah River Site
              in Aiken, South Carolina.

METHODOLOGY   To accomplish our objective, we:

                   •   Reviewed Federal laws and regulations associated with
                       the implementation of HSPD-12;

                   •   Obtained and reviewed the Department's policies and
                       procedures for implementing physical and logical access
                       controls associated with HSPD-12;

                   •   Conducted interviews with various office and site
                       officials to gain background information on the
                       Department's implementation of HSPD-12;

                   •   Obtained and reviewed site information relevant to
                       implementation costs, badge population and
                       implementation schedules related to HSPD-12;

                   •   Obtained and reviewed documentation associated with
                       both the current and future plans of physical and logical
                       access controls at each site; and,

                   •   Reviewed prior reports issued by the U.S. Government
                       Accountability Office and the Office of Inspector
                       General.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objectives. We believe that the
              evidence obtained provides a reasonable basis for our findings and
              conclusions based on our audit objectives. Accordingly, we
              assessed significant internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective. In
              particular, we assessed the Department's implementation of the
              Government Performance and Results Act of 1993 and determined


Page 10                                    Objective, Scope and Methodology
Appendix 1 (continued)

                    that it had established performance measures for implementation of
                    HSPD-12. Because our review was limited, it would not have
                    necessarily disclosed all internal control deficiencies that may have
                    existed at the time of our audit. We did not rely on computer-
                    processed data to satisfy our audit objective.

                    The Department and NNSA waived an exit conference.




Page 11                                          Objective, Scope and Methodology
Appendix 2

                                    RELATED REPORTS

Office of Inspector General Reports

   •   Audit Report on Verification of Lawrence Berkeley National Laboratory's Contract
       Workers' Eligibility to Work in the U.S. (DOE/IG-0850, April 2011). Not all of
       Lawrence Berkeley National Laboratory's (LBNL) subcontractors ensured that
       individuals employed to work on the site were initially eligible or maintained
       authorization to work in the U.S. throughout the term of their employment. In addition,
       some contractors failed to record required key employment eligibility elements. Further,
       although available for voluntary use by all employers since 2007, we found that none of
       the 19 LBNL subcontractors included in our review used the U.S. Government's E-Verify
       system to supplement the Form I-9 employee eligibility determination process. These
       problems occurred, in part, because LBNL contractors did not place sufficient emphasis
       on ensuring that their employment verification activities complied with Federal law. In
       addition, Department of Energy (Department) policy did not require site security offices
       to verify, or even to confirm on a sample basis, the employment eligibility of contract
       workers before site access is allowed. As a consequence, unauthorized workers may
       have inappropriately gained access to Federally-funded facilities and could have
       displaced U.S. citizens or other authorized workers from jobs. Management concurred
       with the findings and recommendations contained in the inspection.

   •   Audit Report on Environmental Cleanup Projects Funded by the Recovery Act at the Y-
       12 National Security Complex (OAS-RA-L-11-02, December 2010). The Y-12 National
       Security Complex (Y-12) had not included a required clause that was intended to ensure
       employment eligibility in the American Recovery and Reinvestment Act of 2009
       (Recovery Act) subcontracts we reviewed. Although the Employment Eligibility
       Verification clause was effective in December 2009, Y-12 had not flowed down the
       clause to its subcontractors until September 2010. Specifically, Y-12 management
       decided it was more efficient to reference the clause in its General Terms and Conditions,
       which were undergoing revision, rather than incorporating it independently into each
       subcontract. Y-12 management stated it had mitigating controls to ensure that only U.S.
       citizens are issued photo badges which are required for access to the Y-12 site. However,
       Y-12 management acknowledged that it was not required to verify the validity of proof of
       citizenship as part of its badging process, and we confirmed, that Y-12 does not verify the
       information with independent parties. While Y-12's controls may have been beneficial, it
       did not provide the independent verification of employment eligibility documentation
       available through the E-Verify system as required by Federal regulations. Because of the
       mitigating actions initiated by Y-12, we did not make formal recommendations.

Government Accountability Office Reports

   •   Report on Agencies Face Challenges in Implementing New Federal Employee
       Identification Standard (GAO-06-178, February 2006). The U.S. Government
       Accountability Office (GAO) found that the Federal government faces significant
       challenges in implementing Federal Information Processing Standard (FIPS) 201,


Page 12                                                                        Related Reports
Appendix 2 (continued)

      including: (1) testing and acquiring compliant commercial products – such as smart
      cards and card readers—within required time frames; (2) reconciling divergent
      implementation specifications; (3) assessing the risks associated with specific vendor
      implementations of the recently chosen biometric standard; (4) incomplete guidance
      regarding the applicability of FIPS 201 to facilities, people and information systems; and,
      (5) planning and budgeting with uncertain knowledge and the potential for substantial
      cost increases. Until these implementation challenges are addressed, the benefits of FIPS
      201 may not be fully realized. Specifically, agencies may not be able to meet
      implementation deadlines established by the Office of Management and Budget (OMB),
      and more importantly, true interoperability among Federal government agencies' smart
      card programs – one of the major goals of FIPS 201 – may not be achieved.

  •   Additional OMB Leadership Needed to Optimize Use of New Federal Employee
      Identification Cards (GAO-08-292, February 2008). GAO found that although much
      work had been accomplished to lay the foundations for implementation of HSPD-12, a
      major Federal government-wide undertaking had not occurred. Agencies had made
      limited progress implementing and using Personal Identity Verification (PIV) cards. For
      the limited number of cards that had been issued, most agencies had not been using the
      electronic authentication capabilities on the cards and had not deployed implementation
      plans for those capabilities. Without implementing the cards' electronic authentication
      capabilities, agencies will continue to purchase costly PIV cards to be used in the same
      way as the much cheaper, traditional identification (ID) cards being replaced. Until
      OMB revises its approach to focus on the full use of the capabilities of the new PIV
      cards, HSPD-12's objectives of increasing the quality and security of ID and credentialing
      practices across the Federal government may not be fully achieved.




Page 13                                                                        Related Reports
Appendix 3

             MANAGEMENT COMMENTS




Page 14                            Management Comments
Appendix 3




Page 15      Management Comments
Appendix 3




Page 16      Management Comments
Appendix 3 (continued)




Page 17                  Management Comments
Appendix 3 (continued)




Page 18                  Management Comments
                                                                    IG Report No. DOE/IG-0860

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
